Audit Report




OIG-11-083
SAFETY AND SOUNDNESS: Material Loss Review of Century
Bank, FSB
July 14, 2011




Office of
Inspector General
Department of the Treasury
 
Contents


Audit Report

  Causes of Century’s Failure ........................................................................         3
       Aggressive Growth Strategy and Excessive Concentrations
       In Higher-Risk Loans .........................................................................          3
       Ineffective Management and Inadequate Board Oversight ......................                            6
       Inadequate Capital Levels ..................................................................            8
       Decline in Real Estate Values .............................................................             9

  OTS’s Supervision of Century. ....................................................................    9
       Summary of OTS’s Supervisory Actions .............................................. 10
       OTS Did Not Downgrade Century’s Asset Quality and Management Ratings
       or Issue an Enforcement Action After a 2007 Examination When Its
       Conditions Were Deteriorating ........................................................... 11
       OTS Did Not Issue a Temporary Cease and Desist Order While Century
       Contested a Proposed Cease and Desist Order. .................................... 13
       OTS Did Not Require Century to Hold Additional Capital. ...................... 14
       OTS Did Not Take Forceful and Timely Actions to Address Unsafe
       Concentrations in Higher-Risk Lending ................................................ 15
       OTS Did Not Require Century to Refile Its TFR After It Backdated a
       Capital Contribution .......................................................................... 15
       OTS’s Use of PCA Was Reasonable .................................................... 16
       OTS Internal Failed Bank Review ........................................................ 17

  Concluding Remarks ..................................................................................      18



Appendices

  Appendix    1:      Objectives, Scope, and Methodology ....................................                21
  Appendix    2:      Loans Involving Improper Loan Accounting Practices ..............                      24
  Appendix    3:      Background........................................................................     29
  Appendix    4:      Management Comments ......................................................             31
  Appendix    5:      Major Contributors to This Report .........................................            32
  Appendix    6:      Report Distribution ..............................................................     33

Abbreviations

      ALLL                allowance for loan and lease losses
      C&D order           cease and desist order


                      Material Loss Review of Century Bank, FSB (OIG-11-083)                               Page i
Century       Century Bank, FSB
FDIC          Federal Deposit Insurance Corporation
HELOC         home equity line of credit
MRBA          matter requiring board attention
OIG           Treasury Office of Inspector General
OTS           Office of Thrift Supervision
PCA           prompt corrective action
ROE           report of examination
TFR           thrift financial report




          Material Loss Review of Century Bank, FSB (OIG-11-083)   Page ii
                                                                                          Audit
OIG
The Department of the Treasury
                                                                                          Report
Office of Inspector General




                        John E. Bowman, Acting Director
                        Office of Thrift Supervision

                        This report presents the results of our material loss review of the
                        failure of Century Bank, FSB (Century), of Sarasota, Florida, and of the
                        Office of Thrift Supervision’s (OTS) supervision of the institution. OTS
                        closed Century and appointed the Federal Deposit Insurance
                        Corporation (FDIC) as receiver on November 13, 2009. Section 38(k)
                        of the Federal Deposit Insurance Act mandated this review because of
                        the magnitude of Century’s estimated loss to the Deposit Insurance
                        Fund. 1 As of March 31, 2011, FDIC estimated a loss of $266.5
                        million to the Deposit Insurance Fund and a loss of $598,960 to the
                        Transaction Account Guarantee Program. 2

                        Our objectives were to determine the cause of Century’s failure;
                        assess OTS’s supervision of Century, including implementation of the
                        prompt corrective action (PCA) provisions of section 38; and make
                        recommendations for preventing such a loss in the future. To
                        accomplish these objectives, we reviewed the supervisory files and
                        interviewed officials at OTS and FDIC. We conducted our fieldwork
                        from January 2010 through March 2010. Appendix 1 contains a more
                        detailed description of our objectives, scope, and methodology.
                        Appendix 2 contains a detailed discussion of loans involving improper
                        accounting practices. Appendix 3 contains background information on
                        Century’s history and OTS’s assessment fees and examination hours.


1
  At the time of Century’s failure, section 38(k) defined a loss as material if it exceeds the greater of $25
million or 2 percent of the institution’s total assets. Effective July 21, 2010, section 38(k) defines a loss as
material if it exceeds $200 million for calendar years 2010 and 2011, $150 million for calendar years 2012
and 2013, and $50 million for calendar year 2014 or after (with a provision that the threshold be raised
temporary to $75 million under certain conditions).
2
  Certain terms that are underlined when first used in this report, are defined in, Safety and Soundness:
Material Loss Review Glossary, OIG-11-065 (April 11, 2011). That document is available on the Treasury
Office of Inspector General’s (OIG) website at http://www.treasury.gov/about/organizational-
structure/ig/Documents/oig11065%20(508).pdf.


                        Material Loss Review of Century Bank, FSB (OIG-11-083)                        Page 1
                       In brief, the primary causes of Century’s failure were its (1) aggressive
                       growth strategy and excessive concentrations in higher-risk loans,
                       (2) ineffective management and inadequate board oversight, and
                       (3) insufficient capital relative to the risk level of its loans. These
                       conditions were exacerbated by the severe downturn in real estate values
                       in Florida, the primary market that Century served. It should also be noted
                       that on July 29, 2008, Century backdated a $7 million capital
                       contribution. Finally, we found that the thrift made several questionable
                       loans that concealed and distorted Century’s true financial condition.

                       OTS’s supervision of Century did not prevent a material loss to the
                       Deposit Insurance Fund. OTS did not timely downgrade Century’s
                       asset quality and management ratings nor issue an informal
                       enforcement action when the thrift’s conditions were declining. In
                       addition, OTS also did not issue a temporary cease and desist order
                       (C&D order) when conditions warranted an elevation in enforcement
                       action and did not require Century to hold additional capital to support
                       the thrift’s risk profile. Furthermore, OTS did not identify credit
                       concentrations at Century early enough where a supervisory response
                       may have made a difference and the actions OTS did eventually take
                       were not adequate to address the risk associated with the credit
                       concentrations.

                       We also found that OTS did not require Century to correct and refile
                       its thrift financial reports (TFR) after OTS discovered that the thrift
                       had backdated a capital contribution. 3 As a result, Century appeared
                       to be a well capitalized institution when it was actually adequately
                       capitalized. 4

                       We concluded that starting in September 2008, as Century’s capital
                       fell below adequately capitalized OTS used its authority under PCA,
                       but those actions did not prevent Century’s failure or a material loss to
                       the Deposit Insurance Fund.


3
  Century was one of six OTS regulated thrifts (thrift 2) that backdated capital contributions as we
reportedin our May 21, 2009, audit report entitled Safety and Soundness: OTS Involvement with Backdated
Capital Contributions by Thrifts, OIG-09-037..
4
  Prompt corrective action sets minimum requirements for each capital category. The five established capital
classifications are well capitalized, adequately capitalized, undercapitalized, significantly undercapitalized,
and critically undercapitalized. Our related audit product entitled Safety and Soundness: Material Loss
Review Glossary, OIG-11-065, provides further details on the specific capital requirements for each capital
category.


                       Material Loss Review of Century Bank, FSB (OIG-11-083)                       Page 2
              We are reaffirming prior material loss review recommendations
              regarding higher-risk concentrations. We are also reaffirming the need
              for examiners to ensure appropriate ratings are assigned to
              institutions, which has been a problem reported in a number of other
              failed bank reviews by our office. OTS has issued guidance regarding
              the timeliness of enforcement actions. Also, it should be noted that
              pursuant to P.L. 111-203, OTS’s functions are to transfer to other
              federal banking agencies on July 21, 2011. Accordingly, we are not
              making any new recommendations based on this material loss review.

              We referred certain matters involving Century’s improper credit
              administration practices and financial reporting to the Treasury Inspector
              General’s Office of Investigations.

              In a written response, OTS stated that it has been responsive to prior
              MLR reports and internally prepared assessments of other thrift
              failures, and has implemented actions for the recommendations in
              prior reports. OTS’s response is provided as appendix 4.


Causes of Century’s Failure
              Century failed because of its aggressive growth strategy and
              concentrations in higher-risk loans, ineffective management and
              inadequate board oversight, and insufficient capital relative to the risk
              level of its loans. With the downturn in Florida’s real estate market,
              Century’s asset quality declined significantly, resulting in a substantial
              volume of problem loans and significant loan losses. In turn, these loan
              losses significantly diminished earnings, resulted in negative capital, and
              ultimately Century’s failure.

              Aggressive Growth Strategy and Excessive Concentrations In Higher-Risk
              Loans

              Century had an aggressive growth strategy, held an excessive
              concentration of higher-risk loans, and did not adequately identify or
              monitor the risks associated with those loans. These higher-risk loans
              consisted of home equity lines of credit (HELOC), land loans,
              nonresidential, and interest-only adjustable-rate mortgage loans.
              Century’s asset quality deteriorated significantly in 2008 primarily due to
              the decline in the Florida real estate market.



              Material Loss Review of Century Bank, FSB (OIG-11-083)           Page 3
                       Century pursued rapid and aggressive growth at the height of the real
                       estate market. The thrift’s total assets increased from $552 million to
                       $889 million, or by 61 percent, from June 2005 to June 2007. Century
                       achieved this growth primarily through wholesale origination of residential
                       mortgage loans and non-homogeneous loans. 5

                       Figure 1 shows the significant growth from 2004 through 2007 in
                       construction loans, land loans, and HELOCs. Beginning in 2008,
                       Century’s deteriorating asset quality resulted in an increase in charge-
                       offs; and a decrease in the volume of these loans.

                      Figure 1. Growth in Century’s Construction Loans, Land Loans, and HELOCs,
                                June 2004–June 2009 (in millions)
                     $140

                     $120

                     $100

                      $80

                      $60

                      $40

                      $20

                       $0
                               Jun‐04       Jun‐05       Jun‐06        Jun‐07      Jun‐08      Jun‐09

                                           Construction Loans     Land Loans    HELOCs

                       Source: 2006 and 2007 reports of examination (ROE) and 2008 and 2009 Uniform Thrift
                       Performance Reports for Century.


                       OTS defines a concentration as a group of similar types of assets or
                       liabilities that, when aggregated, exceeds 25 percent of a thrift’s risk-
                       based capital (core capital plus allowance for loan and lease losses
                       (ALLL)). If a thrift’s assets are highly concentrated in a particular
                       category, negative events affecting that category can be highly
                       detrimental to the thrift as a whole. In this regard, as of March 31, 2008,
                       HELOCs equaled 178 percent of Century’s total risk-based capital, land

5
  Century’s non-homogeneous loans consisted of multifamily, nonresidential real estate loans, construction
loans, land loans, and nonmortgage commercial loans.


                       Material Loss Review of Century Bank, FSB (OIG-11-083)                       Page 4
loans equaled 163 percent, and construction loans equaled 108 percent.
Century continued making these higher-risk loans, and by June 2009
HELOCs represented 451 percent of risk-based capital, and construction
loans and land loans represented 579 percent of risk-based capital.

According to OTS’s 2008 ROE for the thrift, Century was able to
increase its HELOC loan portfolio significantly because it relied
excessively during the loan approval process on the inflated value of
borrowers’ primary residences as collateral for the HELOCs. OTS also
noted that 59 percent of the HELOC portfolio was originated in 2005
and 2006, during the housing boom, but this portion of the portfolio
contained 85 percent of the delinquent HELOCs.

Asset quality began to deteriorate in the quarter ended June 30,
2007, and delinquencies began to rise. As shown in figure 2,
delinquent and nonaccrual construction loans, land loans, and HELOCs
increased considerably from December 2006 to June 2008, leading to
significant losses beginning with the quarter ended December 31,
2007.




Material Loss Review of Century Bank, FSB (OIG-11-083)        Page 5
       Figure 2. Century’s Delinquent and Nonaccrual Construction Loans,
                 Land Loans, and HELOCs (in millions)


                   Delinquent and Nonaccrual Loans
         $80

         $70

         $60

         $50

         $40                                                   Land

         $30                                                   HELOC
                                                               Construction
         $20

         $10

          $0




Source: 2008 ROE for Century; OTS workpaper.


Ineffective Management and Inadequate Board Oversight

Century’s management did not adequately identify, measure, monitor, or
control significant risks that threatened the viability of the thrift, as
evidenced by (1) improper credit administration practices, (2) the heavy
influence of the thrift’s president and its owner over senior management
and the board of directors, (3) poor risk management, and (4) a
backdated capital contribution. These practices led to inaccurate financial
reporting, which masked the dire financial condition of the thrift.

Improper Credit Administration Practices

Century made a number of questionable loans using improper credit
administration practices that concealed and distorted Century’s true
financial condition. Century (1) failed to timely identify and classify
problem loans, (2) did not obtain timely appraisals and ignored
unfavorable appraisals, and (3) advanced funds to pay delinquent interest


Material Loss Review of Century Bank, FSB (OIG-11-083)                Page 6
in order to keep loans current. These activities postponed loss
recognition, understated asset quality deterioration, and overstated
capital and interest income. Many of the loans involved more than one
unacceptable credit administration practice. Appendix 2 contains a more
detailed discussion of the circumstances surrounding specific problem
loans.

Influence of Century’s Owner and Its President on Senior Management
and the Board of Directors

Century’s owner and its president both had significant influence over
senior management and the everyday operations of the thrift. In many
cases, the thrift’s management, with the board’s knowledge and consent,
engaged in high-risk lending practices to defer timely recognition of
mounting asset quality problems. For example, the thrift’s president
approved a stated income loan of $12 million for a home located in
Columbus, Ohio, which was outside of Century’s lending area.
Comparable properties used to determine the appraisal value of the home
were located far from the subject property; for example one of the
comparables was located in Atlanta, Georgia. An OTS examiner told us
that there were indicators that Century’s owner was also involved in the
loan approval process. (For more information, see appendix 2, Loan 5.) In
addition, according to OTS examiners, Century’s owner and president
sometimes overrode decisions by the thrift’s underwriters. In some cases,
the owner and president approved loans via e-mail messages without
reviewing relevant documentation.

The thrift’s board of directors is ultimately responsible for overseeing the
affairs of the thrift. Among the board’s responsibilities are (1) establishing
business goals, standards, policies, procedures, and operating strategies;
(2) approving standards for ensuring that the savings association’s
transactions with affiliates are sound; (3) periodically evaluating
management’s performance; and (4) reviewing thrift operations.
However, an OTS examiner told us that oversight by Century’s board was
severely lacking, primarily because of the influence of the owner. Century
also made questionable loans to the thrift directors’ personal and business
associates.




Material Loss Review of Century Bank, FSB (OIG-11-083)           Page 7
                       Poor Risk Management

                       In its 2006 ROE for Century, OTS recommended that management
                       enhance loan portfolio reporting by including concentration reports and
                       portfolio analyses. 6 As of May 2008, however, these analyses were not
                       in place for some of Century’s loan portfolios and management was not
                       adequately identifying or monitoring the layers of risk in its HELOC, land,
                       nonresidential, and interest-only adjustable-rate mortgage loans. For
                       example, while updated credit scores and property values for the HELOC
                       portfolio was obtained, it was not entered into the loan system nor were
                       analyses performed on the portfolio’s risk using that updated data.

                       Backdated Capital Contribution

                       On July 29, 2008, Century’s holding company made a $7 million capital
                       contribution to Century. Century then backdated the transaction in its
                       TFR for the quarter ended June 30, 2008, so that it would appear to
                       have occurred during that quarter. OTS objected to backdating the
                       transaction and instructed thrift management not to do it. Century
                       management nevertheless proceeded with the backdating and, as a
                       result, filed a misleading TFR, which overstated the thrift’s capital level
                       and misrepresented the true financial condition of the thrift. As a result,
                       Century appeared to be a well-capitalized institution when it was actually
                       only adequately capitalized. Furthermore, OTS took no additional action
                       against the thrift with regard to the misleading TFR.

                       Inadequate Capital Levels

                       Historically, Century’s business strategy focused on maintaining capital at
                       a level just above well-capitalized. Century was considered well-
                       capitalized under PCA requirements until the quarter ending June 30,
                       2008, when it fell to adequately capitalized. 7 Nevertheless, Century’s
                       capital levels were inadequate to support its significant exposure to loans
                       with higher levels of credit risk. According to section 120 of the OTS
                       Examination Handbook, thrifts that engage in higher-risk activities require
                       more capital, especially if the activities are conducted at significant

6
  A portfolio analysis examines a portfolio’s concentrations and risk factors based data such as Fair Isaac
Corporation scores of the borrowers, loan-to-values, geographic locations, origination dates, and
delinquency status.
7
  For quarter ended June 30, 2008, Century should have been deemed adequately capitalized. However,
since Century backdated $7 million capital contribution Century appeared to be well-capitalized.


                       Material Loss Review of Century Bank, FSB (OIG-11-083)                       Page 8
             concentration levels. Century’s strategy of maintaining capital just above
             the well-capitalized standard afforded it little cushion for unanticipated
             adverse events, such as the downturn in the real estate market that
             began in 2007.

             Decline in Real Estate Values

             Century’s loans were mainly concentrated in southwestern Florida. In late
             2007, the housing market began to deteriorate across the country, and
             the Florida real estate market began experiencing a severe downturn.
             Within its residential mortgage portfolio, Century experienced significant
             losses in its HELOCs. As noted earlier, Century heavily relied on the
             inflated value of borrowers’ primary residences as collateral for HELOCs
             during the loan approval process. These HELOCs were often used by
             borrowers to purchase second homes or investment properties. As the
             economy declined, home prices fell, and collateral values dropped. At the
             same time, many borrowers were unable to service the debt on their
             second homes or investment properties. As a result, Century’s suffered
             losses on its HELOCs, as well as in its other loan portfolios. In turn, this
             seriously eroded the thrift’s capital to the point of being negative.
             Century’s significant loan losses, diminished earnings, and negative
             capital led ultimately to the thrift’s failure.


OTS’s Supervision of Century
             OTS’s supervision of Century did not prevent a material loss to the
             Deposit Insurance Fund. OTS did not downgrade Century’s asset
             quality and management ratings or issue any type of enforcement
             action even after its 2007 limited examination revealed the thrift’s
             conditions were deteriorating. OTS also did not require Century to hold
             additional capital to support the thrift’s risk profile. Furthermore, OTS
             did not identify credit concentrations early enough, and when it did, it
             did not take adequate measures to address the risk. In addition, OTS
             did not require Century to refile its TFR after the thrift backdated a
             capital contribution. By not doing so, PCA was delayed for more than
             1 year. However, we concluded that starting in December 2008, OTS
             properly used its authority under PCA in accordance with PCA
             requirements, but those actions did not prevent Century’s failure or a
             material loss to the Deposit Insurance Fund.




             Material Loss Review of Century Bank, FSB (OIG-11-083)          Page 9
                     Summary of OTS’s Supervisory Actions

                     Table 1 summarizes the results of OTS’s safety and soundness full-
                     scope and limited-scope examinations of Century from 2005 until its
                     closure in November 2009. Generally, matters requiring board
                     attention (MRBAs) represent the most significant items reported in
                     ROEs requiring corrective action.

      Table 1. Summary of OTS’s Examinations of and Enforcement Actions Against Century
                                                    Examination Results
               Total assets
Date           (in $ millions)                         No. of              Informal/formal
started/date   at time of      CAMELS      No. of      recommendations/    enforcement
completed      examination     rating      MRBAs       corrective actions  actions
8/29/2005     $552             2/222121            8                13          None
11/14/2005
Full-scope
examination
12/29/2006    $819             2/222121            0                 2          None
3/20/2007
Full-scope
examination
8/28/2007     $889             N/A                 0                 3          None
9/25/2007
Limited
examination
5/19/2008     $921             4/443442           10               23         OTS issued a troubled
8/27/2008                                                                     condition letter on
Full-scope                                                                    9/26/2008.
examination
                                                                              OTS issued a
                                                                              proposed C&D order
                                                                              on 12/11/2008 which
                                                                              was not accepted by
                                                                              Century’s board. OTS
                                                                              issued a proposed
                                                                              revised C&D order on
                                                                              2/12/2009. Century’s
                                                                              board consented to
                                                                              the C&D on
                                                                              8/11/2009.
6/15/2009     $899             5/554542          None              None          None
6/25/2009
Limited
examination
(No report
issued)*




                     Material Loss Review of Century Bank, FSB (OIG-11-083)                    Page 10
       Table 1. Summary of OTS’s Examinations of and Enforcement Actions Against Century
                                                     Examination Results
                Total assets
 Date           (in $ millions)                         No. of              Informal/formal
 started/date   at time of      CAMELS      No. of      recommendations/    enforcement
 completed      examination     rating      MRBAs       corrective actions  actions
 07/20/2009      $841              5/555554            N/A             N/A           The thrift’s board
 11/6/2009                                                                           consented to the C&D
 Full-scope                                                                          order on 8/11/2009.
 examination
 (No ROE
 issued) **
 9/30/2009       $847              5/554542            None              None           None
 9/30/2009
 Limited
 examination
*Century’s examination was never formally communicated to the thrift. According to OTS, this was an oversight.
**Century was put into receivership before the report was issued.

                        OTS Did Not Downgrade Century’s Asset Quality and Management
                        Ratings or Issue an Enforcement Action After a 2007 Examination Found
                        Its Conditions Were Deteriorating

                        A principal objective of the CAMELS rating process is to identify
                        institutions that pose a risk of failure and merit more than normal
                        supervisory attention. Among the CAMELS component ratings, asset
                        quality is among the most important components in determining a thrift’s
                        overall condition. Accordingly, when asset quality is in doubt, the
                        component rating should reflect this concern. That said, according to the
                        OTS Examination Handbook, a rating of 3 is to be assigned for less than
                        satisfactory asset quality and credit administration practices.
                        Furthermore, one of the key objectives of a safety and soundness
                        examination is to evaluate the quality and effectiveness of a savings
                        association’s management. Here again, according to the OTS Examination
                        Handbook, a rating of 3 for the management component should be
                        assigned when improvement is needed in management and board of
                        directors’ performance or the thrift has less than satisfactory risk
                        management practices.

                        On August 28, 2007, OTS started a limited examination of Century to
                        assess asset quality trends since its last full scope examination in
                        December 2006. During that limited examination, examiners
                        concluded that asset quality had deteriorated significantly. The
                        examiners also found that, among other things, thrift management
                        was not adequately monitoring, measuring, or controlling risks,


                        Material Loss Review of Century Bank, FSB (OIG-11-083)                          Page 11
resulting in less than satisfactory risk management practices. We
believe both these conditions met the criteria for rating the asset
quality component and management component as a 3.

Despite this, OTS did not downgrade either Century’s asset quality
component or management component rating as a result of the limited
examination. In fact, it was not until the May 2008 examination was
completed, 11 months later, that OTS downgraded these ratings, from
2 to 4. When we asked why the ratings were not downgraded as a
result of the 2007 limited examination, we were told that although the
adverse trends discussed were observed, the level of classified assets
to Tier 1 capital and allowances would not necessarily be considered
inconsistent with the 2 rating assigned to asset quality at the prior
comprehensive exam. Furthermore, the thrift continued to be highly
profitable without significant charge-offs to that point. These factors,
however, are not considerations in OTS guidance for assigning the
component ratings. In our opinion, failing to adjust CAMELS ratings for
conditions that are unsatisfactory sends a mixed and inappropriate
supervisory message to the institution and its board, and is contrary to
the very purpose for which regulators use the CAMELS rating system.

Furthermore, we believe that an informal enforcement action was
warranted based on the results of the 2007 limited examination to
address Century’s deteriorating asset quality and inadequacies in
Century’s management. According to the OTS Examination Handbook,
OTS may use informal enforcement action when a thrift’s overall
condition is sound, but it is necessary to obtain written commitments
from an association’s board of directors or management to ensure that it
will correct the identified problems and weaknesses. OTS, however, did
not issue any informal enforcement actions to Century. Instead, it waited
until December 2008, almost 15 months later, to issue a formal
enforcement action.

Given the rapidly deteriorating condition of the thrift and inadequate and
unreliable risk management mechanisms, a long term problem at this
thrift, we believe that OTS should have downgraded Century’s asset
quality component and management component from a 2 to at least a 3,
and issued an informal enforcement action after its August 2007 limited
examination. Had OTS taken one or both of these steps, some of
Century’s problems might have been addressed earlier, which in turn
might have reduced losses to the Deposit Insurance Fund.


Material Loss Review of Century Bank, FSB (OIG-11-083)         Page 12
                      OTS Did Not Issue a Temporary Cease and Desist Order While Century
                      Contested a Proposed Cease and Desist Order

                      OTS can issue a C&D order either by consent or following a formal
                      administrative hearing when a thrift is required to correct a violation of
                      law, regulation, or an unsafe or unsound practice. OTS can issue a
                      temporary C&D order when it is necessary for a thrift to take
                      immediate action to address insolvency, dissipation of assets, or
                      weakened condition. It can also be used to order a thrift to stop any
                      activity pending the completion of a C&D proceeding. C&D orders and
                      temporary C&D orders are public actions and legally enforceable.

                      On September 26, 2008, based on the results of its full-scope
                      examination which began in May 2008, OTS notified Century that it was
                      in troubled condition and imposed restrictions relating to asset growth,
                      compensation and benefits, third party contracts, dividends, brokered
                      deposits, and transactions with affiliates. Also at that time, the OTS
                      southeast region supervisory action committee approved the issuance of
                      a C&D order to address Century’s unsafe and unsound practices. OTS,
                      however, did not issue the proposed C&D order 8 until December 11,
                      2008, almost 3 months later. On January 7, 2009, Century responded to
                      OTS’s proposed C&D order indicating that (1) the findings in the 2008
                      ROE were inaccurate, (2) the board was appealing various ratings in the
                      report, and (3) the proposed C&D order was inappropriate and should be
                      modified to a supervisory agreement. 9

                      After negotiating with the thrift for several weeks in an effort to reach
                      consent over the proposed C&D order, OTS provided Century with a final
                      proposed C&D order on February 12, 2009. The final C&D order included
                      notification to Century that if the thrift did not timely consent to the
                      order, the matter would be transferred to the OTS chief counsel’s office
                      in Washington, D.C., for an issuance of a formal notice of charges. 10
                      Century responded to OTS on February 19, 2009, stating that it would
                      not consent to the C&D order. As a result, OTS issued a notice of
                      charges on March 3, 2009, and on April 17, 2009 an administrative law
                      judge set an administrative hearing for October 19, 2009. We

8
  OTS directed Century’s board to consent to the proposed C&D order by December 26, 2008.
9
  A supervisory agreement is a formal (public) enforcement action, but is not legally enforceable.
10
   A notice of charges is required when a temporary C&D order is issued and initiates the proceeding for a
permanent C&D order. However, a notice of charges can be issued without issuing a temporary C&D order.


                      Material Loss Review of Century Bank, FSB (OIG-11-083)                   Page 13
                      acknowledge that OTS had no control as to the timing of when the
                      administrative hearing would be set. However, in this case, we believe it
                      would have been prudent and reasonable for OTS to avail itself of its
                      other supervisory tools, such as issuing a temporary C&D, to prevent the
                      thrift from originating more loans; OTS did not take any such action
                      against Century. Instead, it took nearly 11 months after OTS first
                      determined that a C&D should be issued, before Century consented to the
                      C&D order. 11

                      OTS’s regional enforcement counsel told us that OTS discussed
                      issuing a temporary C&D order in April 2009, but at that time, they
                      felt they needed more evidence to show harm. However, we believe
                      that in light of the history of this thrift’s management and board of
                      directors’ performance, as discussed above, and the evidence OTS
                      had in order to support the issuance of the proposed C&D order, the
                      issuance of a temporary C&D order was warranted, and necessary to
                      prevent Century from continuing its unsafe and unsound lending
                      activities, and potentially limit losses to the Deposit Insurance Fund.

                      OTS Did Not Require Century to Hold Additional Capital

                      OTS can impose individual minimum capital requirements on a thrift
                      whenever an examiner finds capital to be insufficient relative to a thrift’s
                      risk profile. For example, higher capital levels may be appropriate for a
                      thrift that engages in higher-risk activities, especially if the activities are
                      conducted at significant concentration levels. In addition, higher capital
                      requirements may be appropriate for a thrift that has management
                      deficiencies, including failure to adequately monitor and control financial
                      and operating risks, particularly credit concentrations and nontraditional
                      activities.

                      As previously discussed, Century’s business strategy was to keep just
                      enough capital to be at the well-capitalized level. As early as 1999,
                      examiners noted that given the thrift’s risk profile, both capital and ALLL
                      were maintained at the lowest acceptable levels, leaving little cushion for
                      unforeseen contingencies. Even though Century’s capital was at minimal


11
  The permanent C&D order became effective August 11, 2009. It required Century to (1) prepare a capital
augmentation plan; (2) maintain core and risk-based capital ratios of 8 and 12 percent, respectively;
(3) develop a business plan and detailed written plan to reduce problem assets; (4) address ALLL adequacy
and the ALLL methodology; and (5) implement the 2008 ROE and other corrective actions.


                      Material Loss Review of Century Bank, FSB (OIG-11-083)                  Page 14
                     acceptable levels relative to its risk profile, OTS did not take supervisory
                     action to require Century to hold additional capital.

                     When we asked OTS whether it considered imposing an individual
                     minimum capital requirement on Century after the 2007 limited-scope
                     examination, we were told that during the time, the thrift’s earnings
                     remained strong and the examination team did not believe that capital
                     was threatened by credit quality issues. However, because of Century’s
                     deteriorating asset quality, high concentrations in HELOCs, construction
                     loans, and land loans, and inadequate management, we believe OTS
                     should have imposed a minimum capital requirement after the 2007
                     limited-scope examination. Such a requirement might have prevented
                     Century from increasing its high-risk loan portfolio and potentially lessen
                     losses to the Deposit Insurance Fund.

                     OTS Did Not Take Forceful and Timely Actions to Address Century’s
                     Unsafe Concentrations in Higher-Risk Lending

                     OTS’s ROEs identified Century’s increasing concentrations in higher-risk
                     lending. However, OTS did not take timely action to limit growing
                     concentrations.

                     By June 2005, Century had high concentrations in HELOCs, construction
                     loans, and land loans; however, OTS did not use MRBAs or corrective
                     actions to limit or restrict the thrift’s concentration in and growth of
                     these loans until it issued a corrective action in the May 2008 ROE. This
                     corrective action stated that the board should establish comprehensive
                     loan concentration limits to ensure that reasonable levels of
                     concentrations are maintained. We believe that OTS should have taken
                     stronger supervisory action by at least 2006 to address the thrift’s
                     concentrations in higher-risk lending.

                     OTS Did Not Require Century to Refile Its TFR After It Backdated a
                     Capital Contribution

                     In June 2009, we reported on the circumstances surrounding
                     inappropriately backdated capital contributions by six thrifts.12 One of
                     those thrifts was Century. As mentioned earlier, Century’s holding
                     company made a $7 million capital contribution to the thrift on July 29,

12
  Safety and Soundness: OTS Involvement With Backdated Capital Contributions by Thrifts, OIG-09-037
(May 21, 2009).


                     Material Loss Review of Century Bank, FSB (OIG-11-083)                Page 15
2008, and backdated the transaction in its TFR for the period ended
June 30, 2008. OTS objected to Century’s backdating the transaction
and instructed the thrift’s management not to do so, but the thrift’s
management proceeded to do so nonetheless. We determined that if OTS
had required Century to refile its TFR without the $7 million backdated
capital contribution, the thrift’s total risk-based capital would have been
about 9.2 percent. In that case, Century would have been categorized as
adequately capitalized, rather than well-capitalized, at June 30, 2008.

OTS’s Use of PCA Was Reasonable

The purpose of PCA is to resolve the problems of insured depository
institutions at the least possible long-term loss to the Deposit Insurance
Fund. According to PCA requirements, federal banking agencies are to
take certain actions when an institution’s capital drops below the
adequately capitalized level. Under PCA, regulators also have flexibility to
take other supervisory actions against institutions based on criteria other
than capital levels to help reduce deposit insurance losses caused by
unsafe and unsound practices.

We concluded that OTS used its authority under PCA in accordance with
PCA requirements once Century’s capital level fell below adequately
capitalized. A description of OTS’s key actions follows:

•   On August 3, 2009, based on Century’s filing of its June 30, 2009,
    TFR, OTS timely notified Century that it had fallen into the
    significantly undercapitalized capital category. The notice required
    Century to file a capital restoration plan no later than August 28,
    2009. It also required Century to abide by mandatory PCA restrictions,
    which included limits on capital distributions, acquiring interest in any
    company or insured depository institution, and establishing additional
    branch offices. The PCA notice also required Century to notify OTS of
    any changes in directors or senior executive officers and of any
    transaction with affiliates.

•   On September 30, 2009, OTS notified Century that it was deemed
    critically undercapitalized and that the capital restoration plan
    submitted in response to its August 3, 2009, notice was disapproved.
    The notice also requested that Century’s board consent to a PCA




Material Loss Review of Century Bank, FSB (OIG-11-083)          Page 16
                            directive. 13 Century’s board consented to the issuance of the PCA
                            directive on October 19, 2009. The PCA directive became effective on
                            October 22, 2009. OTS closed Century and appointed FDIC as
                            receiver on November 13, 2009.

                        The PCA and other enforcement actions taken by OTS ultimately were
                        unsuccessful in preventing the thrift’s failure.

                        OTS Internal Failed Bank Review

                        In accordance with its policy, OTS performed an internal review of
                        Century’s failure to determine the causes of failure, evaluate its
                        supervision, and provide recommendations. 14 Similar to what we found,
                        OTS’s review determined that Century’s failure was caused by losses
                        experienced in its higher risk and geographically concentrated loan
                        portfolios, which eroded the thrift’s capital. The asset quality
                        deterioration was exacerbated by the failure of Century’s management
                        and board of directors to ensure that adequate risk management practices
                        were in place to manage and control the significant credit risk of these
                        portfolios during the period of aggressive loan growth.

                        Although the review concluded that OTS provided regular oversight of
                        Century, it also identified instances where OTS supervision could have
                        been more stringent in regard to requiring the thrift to set concentration
                        limits for higher risk lending activities, establishing and maintaining
                        appropriate risk management practices to control and manage credit risk,
                        and maintaining adequate capital levels to support higher risk lending.
                        Furthermore, the review concluded that OTS could have taken additional
                        supervisory actions in an effort to mitigate the risk at Century until
                        Century’s board consented to OTS’s proposed C&D order, including
                        issuing a temporary C&D order.


13
   The PCA directive required the thrift, in part, to (1) recapitalize by either merging with or being acquired
by another entity or the sale of all or substantially all of the institution’s assets and liabilities; (2) achieve
and maintain, at a minimum, total risk based capital ratio of 8 percent, tier 1 core risk based capital ratio of
4 percent and leverage ratio of 4 percent; (3) make diligent and good faith efforts to seek capital; (4) obtain
prior approval from OTS before entering into certain agreements; (5) comply with all mandatory PCA
restrictions for critically undercapitalized category institutions; (6) not pay interest rates on deposits that
exceed the prevailing rates; and (7) not to provide any compensation to directors, officers or employees
beyond those determined reasonable and prudent for a capital deficient institution.
14
   The scope of the review focused primarily on OTS’s supervision from August 2005 through November
2009.


                        Material Loss Review of Century Bank, FSB (OIG-11-083)                        Page 17
                      OTS also noted in its review that its ROE dated June 25, 2009, had
                      downgraded ratings that were not entered into its examination data
                      system or communicated to the bank. This was an oversight by OTS
                      supervision. Century’s ratings were not downgraded or formally
                      communicated to the thrift until September 2009.

                      The internal review identified four recommendations. For three
                      recommendations, two related to concentration risks (risk management
                      and capital requirements) and one related to timeframes for taking
                      enforcement actions, the review noted that these issues had been
                      identified previously and addressed by the issuance of additional OTS
                      guidance. The review identified a new recommendation—to add an edit
                      check for field visits in the OTS examination data system to ensure
                      oversights of entering changes in ratings will not recur.

Concluding Remarks
                      We have reported on excessive concentrations in higher-risk real
                      estate loans and a lack of strong supervisory responses in a number of
                      our material loss reviews during the current economic crisis. To
                      address the need for more direction on concentration limits, OTS
                      issued guidance to thrifts in July 2009 regarding asset and liability
                      concentrations and related risk management practices. 15 The guidance
                      emphasizes important risk management practices and encourages
                      financial institutions to revisit existing concentration policies. It alerts
                      thrifts that OTS examiners will scrutinize high-risk concentrations and
                      pursue appropriate corrective or enforcement action when an
                      institution does not maintain appropriate concentration limits or takes
                      excessive risks. The guidance clearly states that OTS will monitor
                      institutions with a concentration exceeding 100 percent of core capital
                      plus ALLL. While we believe that this July 2009 guidance is better
                      than what had been available to thrifts previously, it is too soon to tell
                      whether the guidance will be effective at controlling risky
                      concentrations going forward. Furthermore, there has been no recent
                      update to examination procedures that identifies a trigger where
                      concentrations are excessive from a safety and soundness perspective




15
  Chief Executive Officer (CEO) Letter No. 311, Risk Management: Asset and Liability Concentrations
(July 9, 2009)


                      Material Loss Review of Century Bank, FSB (OIG-11-083)                  Page 18
                     or provide examiners a range of responses to address excessive
                     concentrations. 16

                     The material loss review of Peoples Community Bank 17 , completed by
                     a contractor under our supervision, included a recommendation that
                     OTS work with its regulatory partners to determine whether to
                     propose legislation and/or change regulatory guidance to establish
                     limits or other controls for concentrations that pose an unacceptable
                     safety and soundness risk and determine an appropriate range of
                     examiner response to high risk concentrations. Our material loss
                     review of Century reaffirms the need for action on this
                     recommendation.

                     With respect to the long delay by OTS in issuing the C&D order to
                     Century (September 2008 to August 2009), OTS did not have any
                     guidelines in place at the time as to when a proposed C&D order
                     should be issued once approved. However, in August 2009, OTS
                     implemented national guidelines that formal enforcement actions
                     should be issued by the regional director and effective within 60
                     calendar days of the enforcement review committee approval. 18

                     We have also previously reported on the need for examiners to issue
                     appropriate CAMELS ratings based on the conditions found and not let
                     factors like profitability and earnings unduly influence those ratings.
                     This is a matter that requires continued attention by examiners.

                     Based on the above, and in light of the pending transfer of OTS
                     functions to other federal banking agencies on July 21, 2011, we are
                     making no recommendations from our material loss review of Century.




16
   The last update to the OTS Examination Handbook pertaining to this subject was in June 2005.
17
   Safety and Soundness: Material Loss Review of Peoples Community Bank, OIG-10-040 (May 27, 2010).
18
   OTS New Direction Bulletin 09-11a, Regional Enforcement Review Committees, August 7, 2009.


                     Material Loss Review of Century Bank, FSB (OIG-11-083)               Page 19
                              * * * * *

We appreciate the courtesies and cooperation provided to our staff
during the audit. If you wish to discuss the report, you may contact
me at (202) 927-5776 or Amni Samson, Audit Manager, at
(202) 927-0264. Major contributors to this report are listed in
appendix 5.


/s/

Susan Barron
Audit Director




Material Loss Review of Century Bank, FSB (OIG-11-083)       Page 20
                        Appendix 1
                        Objectives, Scope, and Methodology




                        We conducted this material loss review of Century Bank, FSB
                        (Century), of Sarasota, Florida, in response to our mandate under
                        section 38(k) of the Federal Deposit Insurance Act. 19 This section
                        provides that if the Deposit Insurance Fund incurs a material loss
                        with respect to an insured depository institution, the inspector
                        general for the appropriate federal banking agency is to prepare a
                        report to the agency that

                        •    ascertains why the institution’s problems resulted in a material
                             loss to the insurance fund;

                        •    reviews the agency’s supervision of the institution, including its
                             implementation of the prompt corrective action (PCA) provisions
                             of section 38; and

                        •    makes recommendations for preventing any such loss in the
                             future.

                        The law also requires the inspector general to complete the report
                        within 6 months after it becomes apparent that a material loss has
                        been incurred.

                        We initiated a material loss review of Century based on the loss
                        estimate by the Federal Deposit Insurance Corporation (FDIC),
                        which was $344 million at the date of its failure on November 13,
                        2009. As of March 11, 2011, FDIC estimated that the loss would
                        be $266.5 million. FDIC also estimated that Century’s failure
                        resulted in a loss of $598,960 to the Transaction Account
                        Guarantee Program.

                        Our objectives were to determine the causes of Century’s failure;
                        assess the Office of Thrift Supervision’s (OTS) supervision of
                        Century, including implementation of the PCA provisions of
                        section 38; and make recommendations for preventing such a loss
                        in the future. To accomplish our review, we conducted fieldwork at
                        OTS’s headquarters in Washington, D.C.; OTS’s southeast region
                        office in Atlanta, Georgia; and Century’s headquarters in Sarasota,
                        Florida. We also interviewed officials of FDIC’s Division of



19
     12 U.S.C. § 1831o(k).


                        Material Loss Review of Century Bank, FSB (OIG-11-083)          Page 21
Appendix 1
Objectives, Scope, and Methodology




Supervision and Consumer Protection. We conducted our fieldwork
from January 2010 through March 2010.

To assess the adequacy of OTS’s supervision of Century, we
determined (1) when OTS first identified Century’s safety and
soundness problems, (2) the gravity of the problems, and (3) the
supervisory response OTS took to get the thrift to correct the
problems. We also assessed whether OTS (1) might have
discovered problems earlier; (2) identified and reported all the
problems; and (3) issued comprehensive, timely, and effective
enforcement actions that dealt with any unsafe or unsound
activities. Specifically, we performed the following work:

•   We determined that the time period relating to OTS’s
    supervision of Century covered by our audit would be from
    August 2005 through Century’s failure on November 13, 2009.
    This period included three full-scope safety and soundness
    examinations prior to OTS’s September 2008 designation of
    Century as a troubled institution and three limited-scope
    examinations.

•   We reviewed OTS’s supervisory files and records for Century
    from 2005 through 2009. We analyzed examination reports,
    supporting workpapers, and related supervisory and
    enforcement correspondence. We performed these analyses to
    gain an understanding of the problems identified, the approach
    and methodology OTS used to assess the thrift’s condition, and
    the regulatory action used by OTS to compel thrift management
    to address deficient conditions. We did not conduct an
    independent or separate detailed review of the external auditor’s
    work or associated workpapers other than those incidentally
    available through the supervisory files.

•   We interviewed and discussed various aspects of the
    supervision of Century with OTS officials and examiners to
    obtain their perspectives on the thrift’s condition and the scope
    of the examinations.

•   We interviewed FDIC officials who were responsible for
    monitoring Century for federal deposit insurance purposes.




Material Loss Review of Century Bank, FSB (OIG-11-083)         Page 22
                        Appendix 1
                        Objectives, Scope, and Methodology




                        •   We reviewed Century documents that had been taken by FDIC
                            and inventoried by FDIC Division of Resolutions and
                            Receiverships personnel.

                        •   We assessed OTS’s actions based on its internal guidance and
                            requirements of the Federal Deposit Insurance Act. 20

                        We conducted this performance audit in accordance with generally
                        accepted government auditing standards. Those standards require
                        that we plan and perform the audit to obtain sufficient, appropriate
                        evidence to provide a reasonable basis for our findings and
                        conclusions based on our audit objectives. We believe that the
                        evidence obtained provides a reasonable basis for our findings and
                        conclusions based on our audit objectives.




20
     12 U.S.C. § 1811 et seq.


                        Material Loss Review of Century Bank, FSB (OIG-11-083)        Page 23
Appendix 2
Loans Involving Improper Accounting Practices




Loans Involving Improper Accounting Practices

Century Bank, FSB (Century) made a number of questionable loans
then concealed and distorted its financial condition through improper
credit administration practices. In this regard, Century (1) failed to
timely identify and classify problem loans, (2) did not obtain timely
appraisals and ignored unfavorable appraisals, and (3) advanced funds
to pay delinquent interest in order to keep loans current. Six Century
questionable loans are discussed below.

Loan One

In January 2007, Century originated a loan for $5.6 million
primarily for construction of the borrower’s home located in
Dunedin, Florida. From December 2008 through February 2009,
Century inappropriately used $120,000 in construction funds to
pay the interest payments and keep the loan current. As a result,
Century continued to fund a delinquent borrower and failed to
timely classify the problem loan.

An independent inspector was hired by Century to review each
loan draw submitted by the borrower, inspect the project to
ascertain that the work had been completed, and make a
recommendation to Century whether to pay the draw. In the later
part of 2008, a new appraisal indicated construction had not
progressed to a 91 percent complete status as represented in a
prior inspection report. As of June 30, 2009, 98 percent of the
initial loan funds were disbursed. However, based on an updated
inspection valuation received on July 1, 2009, an estimated
additional $1 million was needed to get the project to “designer-
ready” status (defined as 70 percent complete). Litigation between
Century and the inspection company ensued for improper approvals
of construction draws. The following photograph shows the
condition of the property as of March 11, 2010, which indicates
substantial construction work is still needed to finish the home.




Material Loss Review of Century Bank, FSB (OIG-11-083)       Page 24
                        Appendix 2
                        Loans Involving Improper Accounting Practices




                        Figure 5: Property as of March 11, 2010




                        Source: OIG observation.


                        Loan 2

                        In November 2006, Century made a $4 million acquisition and
                        development loan and a $4 million guidance line of credit to a
                        borrower, for a total credit of $8 million. 21 In January 2008,
                        Century’s management used $274,000 of the undisbursed loan
                        balance funds to keep the loan current. In addition, in March 2009,
                        the property, which was located in Riverview, Florida, was valued
                        “as is” at $1.4 million, which represented a significant decline in
                        collateral value. At that time, Century management should have
                        downgraded the loan or performed an impairment analysis. Instead
                        management did not classify the loan as substandard until May
                        2009, 2 months later, and did not categorize the loan as
                        nonaccrual until June 2009. 22 As a result, Century did not timely


21
   A guidance line of credit is a line of credit approved by a thrift, but not disclosed to the borrower until
some specific event, usually a request for funding from the borrower.
22
   According to section 260 of the Office of Thrift Supervision Examination Handbook, Asset Quality,
institutions should report loans as nonaccrual when payments are contractually past due 30 days or
more and full payment of principal and interest is not expected.


                        Material Loss Review of Century Bank, FSB (OIG-11-083)                        Page 25
Appendix 2
Loans Involving Improper Accounting Practices




establish an appropriate valuation allowance and therefore did not
properly value the loan in its March 2009 thrift financial report.

Loan 3

In October 2006, Century originated a $9 million loan to refinance
273 acres of agricultural land located in Ellenton, Florida. In
January 2008, the interest reserve was depleted and the loan
became delinquent. Century then improperly advanced $280,000
to the borrower for the purpose of paying delinquent interest. OTS
criticized Century for providing this advance when there was no
equity in the collateral. In August 2008, the borrower provided
Century with $203,000 in checks, which were later returned for
insufficient funds, and $684,000 in post-dated checks, which the
thrift never deposited. These funds were supposed to pay off the
previous advance to bring the loan current and establish an interest
reserve. Century’s management made a commitment to OTS to
recognize an impairment loss by September 30, 2008, if the
borrower failed to honor the post-dated checks. Instead, Century’s
management provided the borrower another loan for $641,000 on
September 30, 2008, that was used to pay off the $280,000 loan,
and to pay delinquent payments and late charges on the $9 million
loan. This loan was a fifth mortgage on the property—agriculture
land for which Century did not obtain an updated appraisal to verify
its value as collateral. In addition, Century failed to timely identify
the problem loan and did not record an impairment for loan until it
filed an amended June 2009 TFR on August 21, 2009.

Loan 4

Century made seven loans to the borrower, which were mostly
residential loans involving cash-out refinances and totaling $9.3
million. In late 2008, due to the borrower’s financial difficulties and
cash flow concerns, Century provided the borrower with two
additional commercial loans totaling $643,000. However, these
funds were not disbursed to the borrower but were used for
interest payments on the residential loans and for a partial
paydown on another loan. The collateral for the two commercial
loans was a fifth lien on a landfill and a third lien on a nonoperating
dirt pit. According to OTS staff we interviewed, it is common to
see first and second liens but highly unusual to see third and fifth


Material Loss Review of Century Bank, FSB (OIG-11-083)          Page 26
Appendix 2
Loans Involving Improper Accounting Practices




liens. Most lenders want to be in a first lien position because in the
event of a default, they are the first creditor to receive
remuneration. Occasionally, a lender accepts a second lien position.
Since Century had a third and a fifth lien position on these
properties, it was unlikely it would receive any remuneration from
the collateral in the event of a default on the commercial loans.

Loan 5

In January 2007, Century approved a $12 million stated income
loan to a borrower in Ohio, which was outside of Century’s normal
lending area. The loan was used to pay off two loans totaling $6
million on the borrower’s residence and provide the borrower with
$3 million in cash. The remaining$3 million of the loan was placed
in a certificate of deposit issued by Century to be held as collateral
for the loan until the balance was paid down to less than $9
million. In 2006, the property was appraised twice with both
appraisals estimating a value of $16 million. The appraised property
was located in Columbus, Ohio, and consisted of a 27,400 square
foot luxury residence and a 6,400 square foot guest house.
Comparable properties used to determine the appraisal value were
located far from the subject property (one comparable property, for
example, was located in Atlanta, Georgia), and none of the
comparables were similar in size (one comparable property, for
example, was a 13,325 square foot home located in Franklin,
Tennessee). During a 2007 field visit, OTS required Century to
obtain a new appraisal and submit it to OTS. During its May 2008
examination, OTS found that Century still had not obtained a new
appraisal. In August 2008, Century’s management obtained a
“drive-by” appraisal that was never submitted to OTS or provided
to OTS examiners. OTS examiners found the updated appraisal
during its July 2009 examination. The updated appraisal estimated
the value of the collateral was $4.2 million as of August 2008,
which represented a significant decline in value since the original
appraisals. Since Century did not obtain the appraisal in a timely
manner and ignored the appraisal they later received, Century
delayed recognizing the loss and consequently distorted the thrift’s
true financial condition.




Material Loss Review of Century Bank, FSB (OIG-11-083)         Page 27
Appendix 2
Loans Involving Improper Accounting Practices




Loan 6

In May 2006, Century was a lead lender in a $10.5 million loan to
refinance 10 developed residential lots in the Florida panhandle. A
$2.5 million participating interest was sold to another bank. In
December 2006, OTS designated the loan special mention based
on (1) the inability of the borrower to sell the lots; (2) the
contingent liabilities of the guarantors; and (3) the property
location, which was outside of Century’s normal lending area.
Although Century management agreed to designate the loan special
mention, it did not do so until after a subsequent OTS field visit, in
August 2007. In June 2008, Century was the successful bidder of
these lots at the foreclosure sale. In August 2008, an appraisal of
the three lots property indicated a total of $4 million but the thrift
recorded the assets on the books at $5.8 million. Given the
appraised value at this time, Century should have written the loan
down further than it did.

We referred these questionable loan transactions to the OIG Office
of Investigations.




Material Loss Review of Century Bank, FSB (OIG-11-083)         Page 28
Appendix 3
Background



History of Century Bank

Century Bank, FSB (Century), formally began operations on April 1,
1985, as Century Federal Savings and Loan Association. In 1988,
a Florida businessman bought Century and in 1991 changed its
name to Century Bank, FSB. Century operated in the Sarasota,
Florida, area with a network of 10 branches in Sarasota and
Manatee counties and 1 branch on the east coast of Florida, in
Pompano Beach. Century was wholly owned by Century Financial
Group, Inc., a unitary, nondiversified, shell holding company whose
primary activity was ownership of the thrift. Century’s owner
controlled over 96 percent of the holding company’s stock through
personal and family interests. Century was primarily engaged in
residential real estate lending and, to a lesser degree, commercial
and consumer lending.

Beginning in 2007, Century’s overall financial condition rapidly
deteriorated. The deterioration in asset quality was primarily
attributable to the declining real estate market in Florida and to
management’s aggressive loan growth policy and a lack of
adequate risk management practices. On October 30, 2009,
Century filed its September 30, 2009, thrift financial report, which
reflected its insolvency. On November 13, 2009, OTS closed
Century and appointed the Federal Deposit Insurance Corporation
as receiver.

OTS Assessments Paid by Century

OTS funds its operations in part through semiannual assessments
on savings associations. OTS determines each institution’s
assessment by adding together three components reflecting the
size, condition, and complexity of an institution. OTS computes the
size component by multiplying an institution’s total assets, as
reported on its thrift financial report, by the applicable assessment
rate. The condition component is a percentage of the size
component and is imposed on institutions that have a 3, 4, or 5
CAMELS composite rating. OTS imposes a complexity component
if (1) a thrift administers more than $1 billion in trust assets;
(2) the outstanding balance of assets fully or partially covered by
recourse obligations or direct credit substitutes exceeds $1 billion,
or (3) the thrift services over $1 billion of loans for others. OTS
calculates the complexity component by multiplying set rates by


Material Loss Review of Century Bank, FSB (OIG-11-083)         Page 29
Appendix 3
Background


the amounts by which an association exceeds each threshold.
Table 4 shows the assessments that Century paid to OTS from
2005 through 2009.

Table 4: Assessments Paid by Century to OTS, 2005–2009
Billing Period                 Exam Rating               Amount Paid
1/1/2005–6/30/2005                   2                      $53,111
7/1/2005–12/31/2005                  2                      $59,967
1/1/2006–6/30/2006                   2                      $65,193
7/1/2006–12/31/2006                  2                      $71,462
1/1/2007–6/30/2007                   2                      $82,813
7/1/2007–12/31/2007                  2                      $94,674
1/1/2008–6/30/2008                   2                     $101,134
7/1/2008–12/31/2008                  2                     $103,731
1/1/2009–6/30/2009                   4                     $211,148
7/1/2009–12/31/2009                  4                     $205,594
Total                                                    $1,048,827
Source: OTS.

Number of OTS Staff Hours Spent Examining Century

Table 5 shows the number of OTS staff hours spent examining
Century from 2005 to 2009.

Table 5: Number of OTS Hours Spent on Examining Century,
         2005-2009
                                               Number of
  Examination                                 Examination
  Start Date          Examination Type             Hours
     8/29/2005        Full Scope                     1,003
    12/29/2006        Full Scope                     1,145
     8/28/2007        Limited Scope                    204
     5/19/2008        Full Scope                     1,377
     6/15/2009        Limited Scope                     72
  *Hours are totaled for safety and soundness examinations,
  information technology examinations, and compliance
  examinations.
  Source: OTS.




Material Loss Review of Century Bank, FSB (OIG-11-083)                 Page 30
Appendix 4
Management Comments




Material Loss Review of Century Bank, FSB (OIG-11-083)   Page 31
Appendix 5
Major Contributors to This Report




Susan Barron, Audit Director
Jaideep Mathai, Audit Manager
Amni Samson, Audit Manager
Alicia Bruce, Auditor in Charge
Rachael Draper, Auditor
Kenneth Harness, Referencer




Material Loss Review of Century Bank, FSB (OIG-11-083)   Page 32
Appendix 6
Report Distribution




Department of the Treasury

    Deputy Secretary of the Treasury
    Office of Strategic Planning and Performance Management
    Office of Accounting and Internal Control

Office of Thrift Supervision

    Acting Director
    Liaison Officer

Office of Management and Budget

    OIG Budget Examiner

United States Senate

    Chairman and Ranking Member
    Committee on Banking, Housing, and Urban Affairs

    Chairman and Ranking Member
    Committee on Finance

U.S. House of Representatives

    Chairman and Ranking Member
    Committee on Financial Services

Federal Deposit Insurance Corporation

    Acting Chairman
    Inspector General

U.S. Government Accountability Office

    Comptroller General of the United States




Material Loss Review of Century Bank, FSB (OIG-11-083)    Page 33
